WAIVER

Supreme Court, U.S.
FILED

APR 1 6 2021

Supreme Court of the United States

OFFICE OF THE CLERK

No. 20-7698
v.

Derrick Michael Allen, Sr.
(Petitioner)

Town of Cary Police Department, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is
requested by the Court.
Please check the appropriate box:
a I am filing this waiver on behalf of all respondents.
' 0

I only represent some respondents. I am filing this waiver on behalf of the following
respondent(s):

Please check the appropriate box:
0

I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions:
File a signed Waiver in the Supreme Court Electronic Filing System. The system will
prompt you to enter your appearance first.)

M. I am not presently a member of the Bar of this Court. Should a response be requested, the
response will be filed by a Bar member. (Filing Instructions: Mail the original signed form
to: Supreme Court, tn:jerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature

16 , 26 7.

Date:

(Type or print) Name John T. Crook
Mr.
O Ms.
Firm

0 Mrs.

0 Miss

Bailey & Dixon, LLP

Address PO Box 1351.
City & State Raleigh , NC
Phone 919-828-0731

Zip 2 7 60 2
Email jcrook@bdixon .com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY OF THIS
FORM. NO ADDITIONAL CERTIFICATE OF SERVICE OR COVER LETTER IS REQUIRED.

cc: Derrick Michael Allen, Sr.

RECEIVED
APR 2 7 2021
eFFICE OF THE CLERK
SUPREME COURT, U.S.

